TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Controls Over Records Storage
                            Costs Could Be Improved



                                     September 18, 2014

                             Reference Number: 2014-10-074




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


CONTROLS OVER RECORDS STORAGE                          reasonably validate the charges billed for the
COSTS COULD BE IMPROVED                                services. For example, TIGTA’s review of the
                                                       invoice certification process from May 2013
                                                       through March 2014 did not identify any
Highlights                                             evidence that the IRS performed a review of
                                                       supporting information available from the
Final Report issued on                                 National Archives and Records Administration or
                                                       in any way compared the invoiced charges to
September 18, 2014
                                                       IRS internal records prior to certifying the
                                                       invoices for payment. During this period, the
Highlights of Reference Number: 2014-10-074
                                                       IRS paid the National Archives and Records
to the Internal Revenue Service Chief of
                                                       Administration $30.8 million for storage services.
Agency-Wide Shared Services and
                                                       The IRS acknowledged that the approach used
Commissioner for the Wage and Investment
                                                       to certify these invoices needed improvement
Division.
                                                       and advised TIGTA that it is in the process of
IMPACT ON TAXPAYERS                                    addressing this issue by developing additional
                                                       guidance specifically focused on reviewing and
As of March 2014, the IRS had 5.42 million             validating invoice charges.
cubic feet of paper tax records stored at various
Federal Records Centers throughout the                 WHAT TIGTA RECOMMENDED
country. During Fiscal Year 2013, the IRS paid
                                                       TIGTA recommended that the Chief,
approximately $33 million for paper tax records
                                                       Agency-Wide Shared Services, continue to
storage services. Inefficient management of
                                                       carefully monitor the volume of records past due
costs related to records storage reduces the
                                                       for disposal and address any delays in timely
resources the IRS has available to deliver its
                                                       destruction of those records. In addition, the
mission.
                                                       Commissioner, Wage and Investment Division,
WHY TIGTA DID THE AUDIT                                in coordination with the Chief, Agency-Wide
                                                       Shared Services, should ensure that established
The objective of this review was to determine          procedures to verify invoice charges are
whether the IRS is managing its paper tax              adhered to prior to certifying payment and
records storage needs in a cost-effective              review the validity of all charges TIGTA
manner.                                                identified as not supported by required
                                                       documentation.
WHAT TIGTA FOUND
                                                       In their response, the IRS agreed with two of the
TIGTA identified two areas in which controls
                                                       three recommendations. The IRS plans to
over records storage costs could be improved.
                                                       continue to monitor the document disposal
Specifically, TIGTA found that, as of June 2013,
                                                       process. The IRS also plans to take actions to
the IRS had 238,523 cubic feet of records past
                                                       ensure that established procedures, or approved
due for disposal for which it was obligated to pay
                                                       alternative procedures, are followed when
ongoing monthly storage costs. As a result,
                                                       certifying invoiced charges. The IRS disagreed
unnecessary costs of more than $700,000 were
                                                       with the recommendation regarding reviewing
incurred for those records. During our audit, the
                                                       the validity of all charges identified as not
IRS took a number of actions to address the
                                                       supported by required documentation.
volume of records past due for disposal and
minimize future costs. The IRS reduced its             TIGTA believes that the $30.8 million paid for
volume of records past due for disposal from           records storage service charges that were not
238,523 cubic feet as of June 2013 to                  supported by required documentation represents
16,013 cubic feet as of March 2014.                    a material amount warranting further review by
                                                       the IRS.
TIGTA also found that the review process and
documentation supporting records storage
service invoices were not sufficient to
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 18, 2014


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Controls Over Records Storage Costs Could Be
                             Improved (Audit # 201310003)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is managing its paper records storage needs in a cost-effective manner. This audit is
 included in our Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Achieving Program Efficiencies and Cost Savings.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz,
 Assistant Inspector General for Audit (Management Services and Exempt Organizations).
                                                    Controls Over Records
                                               Storage Costs Could Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Unnecessary Costs Were Incurred Storing Records
          That Should Have Been Destroyed ............................................................... Page 4
                    Recommendation 1:.......................................................... Page 5

          The Review Process and Supporting Documentation
          for Records Storage Service Invoices Were Not
          Sufficient to Validate Charges ...................................................................... Page 6
                    Recommendations 2 and 3: ................................................ Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measure ................................................................ Page 13
          Appendix V – Management’s Response to the Draft Report ....................... Page 14
                 Controls Over Records
            Storage Costs Could Be Improved




             Abbreviations

ARM    Area Records Manager
AWSS   Agency-Wide Shared Services
FRC    Federal Records Center
FY     Fiscal Year
IRS    Internal Revenue Service
NARA   National Archives and Records Administration
                                              Controls Over Records
                                         Storage Costs Could Be Improved




                                             Background

As of March 2014, the Internal Revenue Service (IRS) had 5.42 million cubic feet of paper tax
records stored at Federal Records Centers (FRC) throughout the country. During Fiscal Year
(FY)1 2013, the IRS paid approximately $33 million for paper tax records storage and servicing.
The Records and Information Management Program, within the office of the Chief,
Agency-Wide Shared Services (AWSS), is responsible for overseeing the management of IRS
records. The mission of the Records and Information Management Program is to provide
guidance and oversee related functions and processes which ensure that IRS records are available
when they are needed, in order to conduct business, adequately document IRS activities, and
protect the interests of the Federal Government and taxpayers. Major goals of the Records and
Information Management Program include furnishing information when required to manage and
operate the organization and providing information and records storage at the lowest possible
cost. These goals are accomplished by storing and managing records through the use of local
files area storage, IRS-operated records centers, and National Archives and Records
Administration (NARA) FRCs.
The IRS Records Officer establishes policies and procedures for all records management within
the IRS and also coordinates as required with the NARA. For example, within the Wage and
Investment Division, income tax returns filed by individuals, partnerships, and fiduciaries are
normally destroyed on or after January 16 of each year, six years after the end of the processing
year.2 The Wage and Investment Division is the largest customer of the records management
program, and 93 percent of the total IRS storage holdings at the NARA FRCs are tax records.
Each IRS functional organization is required to designate a business unit information resource
coordinator to be responsible for local records activities. In addition, there are 16 area records
managers (ARM) nationwide who have overall responsibility for coordinating with the
information resource coordinators as necessary. For example, information resource coordinators
are required to notify their respective ARMs of any new records that must be scheduled or any
changes that must be made to their existing Records Control Schedule.
The IRS uses 18 different FRCs to store nonelectronic (paper) tax and administrative records.
These centers are operated by the NARA. The FRCs the IRS uses to store its records generally
align with IRS office locations to reduce transportation and commercial shipping costs.

1
  Any yearly accounting period, regardless of its relationship to a calendar year. The Federal Government’s fiscal
year begins on October 1 and ends on September 30.
2
  IRS, Document 12990 (Rev. 4-2014), Catalog Number 57910D, Records and Information Management Records
Control Schedules, p. 56 (April 2014). A processing year is the calendar year in which the tax return or document is
processed by the IRS.
                                                                                                            Page 1
                                              Controls Over Records
                                         Storage Costs Could Be Improved



Additionally, in 1995, the NARA acquired a lease agreement with one of its private sector
landlords for the IRS in Dayton, Ohio, adjacent to its FRC. The Dayton Building 3 has the
capacity for storing approximately 1,100,000 cubic feet of IRS Forms 1120, U.S. Corporation
Income Tax Return.
While the total volume of paper records stored by the IRS has been slowly declining and
progress has been made in storing records digitally due to increases in electronic filing, the IRS
will continue to require storage for a significant quantity of paper tax records for the foreseeable
future. Specifically, between September 2012 and March 2014, the IRS decreased its paper tax
records storage needs by approximately 91,204 cubic feet. Future storage needs for tax records
are expected to decrease further as additional taxpayers transition to electronic filing. In
June 2014, the IRS Electronic Tax Administration Advisory Committee projected that, for the
2014 Filing Season, the IRS improved electronic filing with a 1.3 percent overall increase in
electronic filing of all major returns and an overall projected electronic filing rate of 75.4 percent
for all major types of tax returns.
The largest barrier to more substantial progress is employment tax returns, which have an overall
projected electronic filing rate of only 32.7 percent for the 2014 Filing Season. While progress
towards increasing electronic filing has been made, the IRS will continue to require storage for a
significant quantity of paper tax records in the future. Figure 1 provides the historical IRS tax
records storage costs from FY 2012 to March 2014. At the time of our review, the charge for
records storage at NARA sites was $0.23 per cubic foot per month. Records are destroyed based
on the records schedule that identifies the records retention period for each type of record.
Records are destroyed by the NARA.
    Figure 1: Costs Related to the Use of FRCs for Storage of Paper Tax Records

                                      Storage3               Total Service Costs4
      Fiscal Year                    (millions)                    (millions)                 Total (millions)

           2012                       $14.45                           $19.25                       $33.70
           2013                       $15.36                           $17.71                       $33.07
           2014**                       $7.48                           $9.16                       $16.64

          Total                       $37.29                           $46.12                       $83.41

Source: The summary information based on NARA invoices for the storage and service of IRS tax records.
** FY 2014 is through March 2014.


3
  Storage is the cost of storing records at the facilities.
4
  Service costs include shelving/reference/disposal costs related to sending IRS records that an IRS employee
requested, refiling the records when they are returned to the FRC, and disposing of the records when they reach their
disposal date.
                                                                                                             Page 2
                                             Controls Over Records
                                        Storage Costs Could Be Improved



This review was performed at the AWSS field office in Crystal City, Virginia; IRS Campuses5 in
Kansas City, Missouri, and Cincinnati, Ohio; and FRCs in Independence, Missouri, and
Dayton, Ohio, during the period June 2013 through May 2014. Our review focused primarily on
cost control procedures related to tax records because they comprise 93 percent of all records in
storage. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 3
                                                Controls Over Records
                                           Storage Costs Could Be Improved




                                        Results of Review

Our review identified two areas in which controls over records storage costs could be improved.
Specifically, we found unnecessary costs were incurred as a result of storing records past due for
destruction. In addition, we determined that the review process and supporting documentation
for NARA records storage service invoices were not sufficient to reasonably validate charges.
Further, we did not identify any material delays6 relating to the retrieval and delivery of a
random sample of 150 Tax Year7 2012 Form 1040, U.S. Individual Income Tax Return, paper tax
returns that we requested from records storage.

Unnecessary Costs Were Incurred Storing Records That Should Have
Been Destroyed
We found unnecessary costs were incurred as a result of storing records past due for destruction.
As of June 2013, the IRS had 238,523 cubic feet of records past due for disposal on which it was
obligated to pay ongoing monthly storage costs. We calculated the excess costs paid from the
start of FY 2011 through March 2014 and determined that the IRS had to pay $701,097 in excess
storage costs related to the 238,523 cubic feet of records past due for disposal. While these
unnecessary expenditures are not a significant portion of the approximately $15 million the IRS
spends annually on storage costs for tax records, the current IRS budget environment makes it a
priority to find any cost savings.
When records stored at an FRC are eligible for destruction, the NARA issues a Form NA-13001,
Notice of Eligibility for Disposal, at least 90 days before the date the records are scheduled for
destruction. For example, individual tax returns (the Form 1040 series) are eligible to be
destroyed six years after the end of the processing year. The IRS’s procedures place overall
responsibility for responding to these notices, including coordinating with appropriate business
unit staff, with 16 ARMs nationwide. The ARMs are responsible for verifying the information
on the notice of disposal and coordinating the disposal. The appropriate business unit staff
approves the notice of disposal and returns it to the ARM for processing. The ARM then
forwards the approved notice of disposal to the NARA. The IRS remains responsible for the
storage costs associated with any delays in this process.


6
  Based on our testing, we are 95 percent confident that the error rate associated with the IRS’s ability to locate the
2012 population of 18,373,716 Form 1040 paper returns we identified was 1.98 percent or less during our test
period. Because we did not sample from all other years and types of tax records in storage, this error rate is not
projectable to the broader population of all tax records in storage.
7
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                                Page 4
                                         Controls Over Records
                                    Storage Costs Could Be Improved



The large backlog of disposals in June 2013 was attributable to several causes, including a lack
of complete and reliable management information regarding the volume of records past due for
disposal, a lack of timely follow-up on the disposition of Forms NA-13001, and inefficient
routing of Forms NA-13001. During our audit fieldwork, the IRS took a number of actions to
address these issues. Specifically, the IRS requested that the NARA begin sending quarterly
reports of all overdue disposals to allow for better tracking and reconciliation of pending
Forms NA-13001. Reminders were also sent to all ARMs advising them that approval of
Forms NA-13001 must be completed within two weeks, and if no response is received, the ARM
is required to escalate the disposition approval to the Headquarters information resource
coordinator. The IRS also worked with the NARA to ensure that all Forms NA-13001 are routed
timely to the responsible ARM.
As a result of these control enhancements and a focused effort by the IRS, the inventory of the
records past due for disposal was reduced and controls over this process were improved.
Specifically, our review identified that the IRS reduced its records past due for disposal from
238,523 cubic feet as of June 2013 to 16,013 cubic feet as of March 2014. Although the IRS has
made improvements to the records disposal process, it is critical that AWSS management
continue to regularly monitor the inventory level of records past due for disposal to avoid
unnecessary costs in the future.
Our review also found that as of March 2014, the IRS had an additional 203,381 cubic feet of
records past due for disposal that it is required to retain because these records are in frozen
status. Frozen records are those records identified as having special circumstances that alter the
administrative, legal, or fiscal value of the records. Frozen records, regardless of their age,
cannot be disposed until the freeze is lifted. Our review found that the majority of the frozen
records past due for disposal are tax records related to tobacco litigation. The litigation freeze
was requested by the U.S. Department of Justice.
The NARA advised us that, after we began our fieldwork, it did directly contact the Department
of Justice regarding the status of the freeze and was informed that the moratorium on destruction
was still active because all items of the litigation had not been resolved. The annual cost of
storage for the 203,381 cubic feet of records past due for destruction, but in frozen status, is more
than $550,000. Only the Department of Justice has the authority to lift the litigation freeze.

Recommendation
The Chief, AWSS, should:
Recommendation 1: Continue to carefully monitor the volume of records past due for
disposal and address any delays in the timely destruction of those records.
       Management’s Response: The IRS agreed with this recommendation and stated that
       procedures have been implemented to improve tracking and reconciliation of

                                                                                              Page 5
                                         Controls Over Records
                                    Storage Costs Could Be Improved



       Forms NA-13001 issued to the ARMs for records with upcoming disposal dates. The
       IRS obtains quarterly reports of all overdue Forms NA-13001 from the NARA and issues
       reminders to the ARMs advising them of the need for action on the overdue forms within
       two weeks. An escalation process has also been implemented to address instances when
       timely approvals of Forms NA-13001 cannot be obtained. These actions have reduced
       the volume of records past due for disposal by more than 93 percent. The IRS will
       continue to follow these procedures for monitoring the document disposal process.

The Review Process and Supporting Documentation for Records
Storage Service Invoices Were Not Sufficient to Validate Charges
We found that, during the period May 2013 through March 2014, the IRS did not perform a
sufficient review of NARA invoices for $30.8 million in tax records storage services before
certifying them for payment. Specifically, we did not identify any evidence that the IRS
performed a review of supporting information available from the NARA or compare the charges
to any internal IRS records prior to certifying the invoices for payment during the period
May 2013 through March 2014. Instead, the IRS primarily relied on a comparison of the invoice
charges to prior cost trends and its overall budgeted amount for records storage.
IRS procedures require careful review of all vendor invoices prior to certification for payment
and state that an invoice alone is not sufficient documentation to support receipt and acceptance
and that appropriate support documentation should be maintained. IRS policies require that
personnel responsible for receipt, inspection, and acceptance of services tendered by a contractor
will maintain the evidence of inspection documentation.
The review of NARA invoices is a complicated task involving charges related to actions taken
by 18 separate records storage centers, each providing a variety of different records storage,
reference, refile, and disposal services. The IRS acknowledged that the approach used to certify
NARA invoices requires improvement and advised us that they plan to develop supplemental
guidance specifically focused on reviewing and validating storage invoice charges, including a
comparison of charges to both NARA supporting reports and internal IRS records. The IRS was
still in the process of developing these procedures at the conclusion of our audit fieldwork.
Without careful review of vendor invoices prior to certification for payment, the IRS cannot be
reasonably assured that it is paying only for goods and services it actually received and that it is
paying the correct price for those goods and services.




                                                                                             Page 6
                                       Controls Over Records
                                  Storage Costs Could Be Improved



Recommendations
The Commissioner, Wage and Investment Division, in coordination with the Chief, AWSS,
should:
Recommendation 2: Ensure that established procedures to verify invoice charges are adhered
to prior to certifying payment.
       Management’s Response: The IRS agreed with this recommendation and stated that
       it is taking actions to ensure that established procedures, or approved alternative
       procedures, are followed when certifying invoiced charges for payment.
Recommendation 3: Review the validity of the $30.8 million paid for records storage service
charges that were not supported by required documentation. Actions should be initiated to
recover any funds identified as being paid erroneously.
       Management’s Response: The IRS disagreed with the recommendation. IRS
       management does not believe any potentially erroneous charges subject to recovery
       would be significant and stated that with continued reduced staffing, it is imperative they
       apply their efforts and resources to strengthening the review process for current and
       future charges. The organizations responsible for this process have collaborated to
       ensure that procedures to be used in validating the charges for record storage services are
       being addressed. The IRS did not agree to take additional action on this
       recommendation.
       Office of Audit Comment: We agree that strengthening the review process for future
       charges is important for the IRS. However, we continue to believe that a review of the
       validity of past charges not supported by required documentation should also be
       completed. The IRS noted that it does not believe any potentially erroneous charges
       subject to recovery would be significant and disagreed with our outcome measure.
       Because the actual amount of erroneous charges cannot be reasonably determined, and is
       likely substantially less than the $30.8 million of charges, TIGTA is not reporting an
       outcome measure for this amount.




                                                                                           Page 7
                                       Controls Over Records
                                  Storage Costs Could Be Improved



                                                                                     Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is managing its paper tax
records storage needs in a cost-effective manner.
I.     Determined the policies, procedures, and guidelines applicable to the IRS’s paper records
       storage.
       A. Obtained and reviewed policies, procedures, and guidelines pertaining to the retention
          requirements for physical (paper hard copy) tax records.
       B. Identified the required retention period for the various types of IRS tax records,
          including tax returns and examination, appeals, and collection case records.
       C. Analyzed guidelines pertaining to the transfer of tax records to the NARA.
       D. Obtained and reviewed all policies, procedures, and guidelines for monitoring the
          status of records sent to the NARA and ensuring their timely disposal.
II.    Assessed the results of the IRS’s efforts to reduce paper tax records storage needs and
       transition to an all-electronic records storage environment.
       A. Reviewed whether the IRS has developed an overall action plan to guide its efforts to
          reduce the volume of physical records it stores and transition to an all-electronic
          records storage environment.
       B. Evaluated trends in the volume, by type of return, of paper tax returns.
       C. Identified the total annual cost associated with storing and servicing paper tax returns
          including handling, packing, shipping, storage, retrieval, refiling, and disposal.
III.   Assessed controls over costs associated with off-site records storage.
       A. Reviewed controls over the disposal of unneeded tax records (expired statutory
          disposal date).
       B. Reviewed controls over the frozen tax records (whose scheduled disposition has been
          temporarily suspended because of special circumstances that alter the administrative,
          legal, or fiscal value of the records).
       C. Reviewed controls over the FRC storage and reference process.
            1. Obtained an extract of individual paper tax returns processed during the
               2012 Filing Season.

                                                                                               Page 8
                                                Controls Over Records
                                           Storage Costs Could Be Improved



               2. Selected a random sample of 150 Tax Year1 2012 Form 1040, U.S. Individual
                  Income Tax Return, paper tax returns and ordered the documents remotely from
                  the appropriate FRC. We selected our sample randomly from 18,373,716 Tax
                  Year 2012 Form 1040 paper returns we identified and extracted from the data
                  stored at the Treasury Inspector General for Tax Administration’s Data Center
                  Warehouse. We utilized a random sample because we wanted each item sampled
                  to have an equal chance of being selected. Our sampling methodology was
                  reviewed by our contracted statistician.
               3. Reviewed the sampled documents received and assessed whether the documents
                  were original and complete, including all schedules filed. If documents were not
                  available, we verified there were supporting explanations regarding
                  unavailability.
         D. Reviewed the management information utilized to monitor records storage program
            costs and program efficiency.
Data Validation Methodology
During this review, we relied on data stored at the Treasury Inspector General for Tax
Administration’s Data Center Warehouse to select a sample of Tax Year 2012 Form 1040 paper
tax returns. This sample was selected from data extracted in November 2013 from the Return
Transaction File2 (Processing Year3 2013). To assess the reliability of computer-processed data,
we ensured that the data extract contained the specific data elements we requested and compared
the data in the extract with the data on the sample source documents received (Tax Year 2012
Form 1040 tax returns). We determined that the extracted data used in our review were
sufficiently reliable for the purpose of our testing. Because the use of this extracted data was
limited solely to obtaining a sample of paper tax returns for review of the FRC storage and
reference process, we did not perform the testing necessary to fully validate whether the
population we identified included all Tax Year 2012 Form 1040 paper tax returns filed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS’s policies and
procedures for transferring, referencing, and disposing of records and policies governing the


1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  This file contains data transcribed from initial input of the original individual tax returns during return processing.
3
  The calendar year in which the tax return or document is processed by the IRS.
                                                                                                                  Page 9
                                       Controls Over Records
                                  Storage Costs Could Be Improved



receipt and acceptance process for invoiced charges from the storage contractor. We evaluated
these controls by interviewing management, reviewing various forms and data used to support
records transfers, referencing records, disposal of records, and the invoiced charges from the
service provider (NARA).




                                                                                        Page 10
                                     Controls Over Records
                                Storage Costs Could Be Improved



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Anthony J. Choma, Audit Manager
Kanika Kals, Lead Auditor
Jamelle L. Pruden, Senior Auditor
Michele N. Strong, Senior Auditor




                                                                                   Page 11
                                     Controls Over Records
                                Storage Costs Could Be Improved



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Counsel C
National Taxpayer Advocate TA
Director, Office of Program Evaluations and Risk Analysis RAS:O
Director, Office of Legislative Affairs CL:LA
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 12
                                        Controls Over Records
                                   Storage Costs Could Be Improved



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Cost Savings – Funds Put to Better Use – Potential; $701,097 in excess storage costs related to
the 238,523 cubic feet of records past due for disposal (see page 4).

Methodology Used to Measure the Reported Benefit:
We found that as of June 2013, the IRS had 238,523 cubic feet of records past due for disposal
for which the IRS was still paying storage costs. Although the IRS reduced its volume of records
past due for disposal to only 16,013 cubic feet by March 2014, we calculated that for FY 2011
through March 2014, the IRS paid $701,097 in excess storage costs related to the 238,523 cubic
feet of records past due for disposal.
We calculated the months elapsed between the disposition date and the actual date of disposition
and applied that to the monthly cost of storage for all of the past due records. We calculated the
excess cost paid from the start of FY 2011 through March 2014.




                                                                                          Page 13
                  Controls Over Records
             Storage Costs Could Be Improved



                                               Appendix V


Management’s Response to the Draft Report




                                                    Page 14
     Controls Over Records
Storage Costs Could Be Improved




                                  Page 15
     Controls Over Records
Storage Costs Could Be Improved




                                  Page 16
     Controls Over Records
Storage Costs Could Be Improved




                                  Page 17
